                                   OFFICE OF INSPECTOR GENERAL
                                     OFFICE OF INVESTIGATIONS

                          CLOSEOUT MEMORANDUM




extracted'from the file in conformance with standard closeout documents.

Our office was informed that the subject' was alleged to have unauthorized worker's compensation.
 We made no findings of fraud, but the Office of Worker's Compensation proposed termination of
the the subject's benefits.

Accordingly this case is closed.
